<html>
<title> - INDIAN EDUCATION</title>
<body><pre>[Senate Hearing 109-115]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-115

                            INDIAN EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

          OVERSIGHT HEARING ON THE STATUS OF INDIAN EDUCATION

                               __________

                             JUNE 16, 2005
                             WASHINGTON, DC



                    U.S. GOVERNMENT PRINTING OFFICE
21-951                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Beaulieu, David, president, National Indian Education 
      Association................................................    20
    Bordeaux, Roger, superintendent, Tiospa Zina Tribal School; 
      executive director, Association of Community Tribal 
      Schools, Inc...............................................    25
    Cason, Jim, associate deputy secretary, Department of the 
      Interior...................................................     3
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     1
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    13
    Lowery, Nick, acting chairman, National Fund For Excellence 
      In American Indian Education, Inc..........................    17
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    McDonald, Joe, president, Salish Kootenai College, 
      representing the American Indian Higher Education 
      Consortium.................................................    22
    Parisian, acting director, Office of Indian Education 
      Programs, Department of the Interior.......................     3
    Thomas, Hon. Craig, U.S. Senator from Wyoming................    11
    Vasques, Victoria, director, Office of Indian Education, 
      Department of Education....................................     4

                                Appendix

Prepared statements:
    Beaulieu, David..............................................    35
    Bordeaux, Roger (with attachment)............................    53
    Cason, Jim...................................................    74
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii.............   112
    McDonald, Joe (with attachment)..............................    87
    Leonard, Leland, director, Division of Dine' Education, 
      Navajo Nation..............................................    33
    Lowery, Nick (with attachment)...............................    80
    Vasques, Victoria (with attachment)..........................    99

 
                            INDIAN EDUCATION

                              ----------                              


                        THURSDAY, JUNE 16, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485 Senate Russell Building, Hon. John McCain (chairman of the 
committee), presiding.
    Present: Senators McCain, Dorgan, Johnson, and Thomas.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning.
    This oversight hearing will focus on Indian education. 
Exactly 1 year ago today, this committee held an oversight 
hearing on the No Child Left Behind Act. It is timely to have 
an update on the implementation of that Act and other education 
issues.
    As we all know, education is critical to preparing children 
for future leadership and productive employment and to 
strengthening Indian economies. The committee's hearing 
yesterday on Indian youth suicide reminds us, however, that 
there are many challenges facing Indian youth which limit 
educational achievement.
    We must overcome this. We know that the Federal Government 
has a special historic responsibility for Indian education. 
Indian tribes also have a responsibility for their children's 
education.
    The committee is deeply concerned about the academic 
performance levels and dropout rates of American Indians and 
Alaska Native students. So we are particularly interested in 
hearing how Federal agencies and Indian tribes are working 
together to improve Indian education, particularly in areas 
such as academic achievement, safe schools and post-secondary 
graduation rates.
    I would like to welcome the witnesses here today and look 
forward to their testimony, especially any recommendations for 
improving Indian education. Your entire statements will be made 
part of the record.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much. Thanks 
for holding this hearing. I think education is one of the 
critical pieces of trying to improve the situation on 
reservations in this country.
    I thought, with your permission, instead of an opening 
statement, I just want to read a 2-page letter which I think 
describes better than I possibly could the urgency of dealing 
with education issues. It is from a young woman. She starts in 
her letter, she wrote to me:

    I grew up poor, considered backwards by non-Indians. My 
home was a two-room log house in a placed called The Bush on 
North Dakota's Turtle Mountain Reservation. I stuttered. I was 
painfully shy. My clothes were hand-me-downs. I was like 
thousands of other Indian kids growing up on reservations 
across America.
    When I went to elementary school, I felt alone and 
different. I could not speak for myself. My teachers had no 
appreciation of Indian culture. I will never forget that it was 
the lighter-skinned kids who were treated better. They were 
usually from families better off than mine. My teachers called 
me ``savage.'' Even as a young child I wondered what does it 
take to be noticed and looked upon the way these other children 
are.
    By the time I reached 7th grade, I realized if my life was 
going to change for the better, I was going to have to do it. 
Nobody could do it for me. That is when the dream began. I 
thought of ways to change things for the better, not only for 
myself, but for my people. I dreamed of growing up, of being a 
teacher, where every child was treated sacred and viewed 
positively, even if they were poor and dirty. I did not want 
any child to be made to feel like I did, but I did not know how 
hard it would be to reach the realization of my dreams.
    I almost did not make it. By the time I was 17, I had 
dropped out of school, moved to California, had a child. I 
thought my life was over. But when I moved back to the 
reservation, I made a discovery that literally helped me put my 
life back together. My sisters were attending Turtle Mountain 
Tribal College which had just started on the reservation. I 
thought it was something I could do, too, so I enrolled.
    In those days, we did not even have a campus. There was no 
building. Some classes met at a local alcohol rehabilitation 
center, an old hospital building that had been condemned. To 
me, it did not matter. I was just amazed I could go to college. 
It was life-changing.
    My college friends and professors were like family, and for 
the first time in my life I learned about the language, 
history, and culture of my people in a formal setting. I felt 
honor and pride begin to well-up inside me.

    Her letter goes on, and she said:

    I loved college so much that I could not stop. I had a 
dream to fulfill or perhaps an obsession.

    It turns out, this young women is now a Ph.D. involved in 
Indian education and the administration of a number of 
different schools. What a remarkable story that she sent to me 
in her letter. Her name is Loretta. I have known Loretta for 
some while.
    This letter describes from the standpoint of a young girl 
and now a grown woman who has her Ph.D. It describes the 
importance of education. Yes, in her life, but I think also in 
a broader scale the importance of education in lifting people 
out of poverty, lifting people from hopelessness and 
helplessness to opportunity.
    I wanted to read this letter. I have read it once before, 
but it so well describes, I think better than any of us can, 
the importance of education in the lives of young Indian 
children. It is why we must focus on education in a way that 
puts together the kind of success stories that we know can 
happen and will happen if we make the right kind of decisions 
with respect to education policy.
    Mr. Chairman, thank you very much for letting me do that.
    The Chairman. Thank you very much, Senator Dorgan. It is 
compelling testimony.
    Our first panel is Jim Cason, who is the associate deputy 
secretary for Indian Affairs. He is accompanied by Ed Parisian, 
who is the acting director of the Office of Indian Education 
Programs. Victoria Vasques is the director of the Office of 
Indian Education of the Department of Education.
    Welcome, Mr. Cason. Why don't we begin with you.

STATEMENT OF JIM CASON, ASSOCIATE DEPUTY SECRETARY, DEPARTMENT 
                OF THE INTERIOR, ACCOMPANIED BY 
        ED PARISIAN, ACTING DIRECTOR, OFFICE OF INDIAN 
                       EDUCATION PROGRAMS

    Mr. Cason. Thank you, Mr. Chairman, Mr. Vice Chairman. I 
really appreciate the opportunity to be here to discuss Indian 
education and the status of the program.
    I am sitting in here as associate deputy secretary with the 
duties and responsibilities of the assistant secretary, pending 
a search for same. I am accompanied here with Ed Parisian, who 
is the deputy director, basically leading the Indian education 
program.
    We have been going through a process, Mr. Chairman, over 
the last 3 months taking a look at Indian education and the 
results we produce and the funds flow we get through the 
program to try and improve our results. What we are finding 
basically is that our school system is not producing the 
results that are acceptable. Out of the 184 schools that we 
have, only one-third of them are meeting AYP targets right now, 
the adequate yearly progress goals of No Child Left Behind. 
That is clearly not sufficient.
    So we have a big job ahead of us to figure out why it is 
that we are only producing those kind of results, and do the 
job to take care of it.
    There are a couple of things that we have started with that 
I would like to just share with the committee, and we can 
discuss at whatever length you would like to. The first is, we 
are seeing this as a job where we have to buckle down, roll up 
our sleeves, and get results in this program that we do not 
have right now. What we are trying to do at this point is to 
partner with the Department of Education to make sure that we 
are clear about what actions need to be taken and what results 
we need to get on an item-by-item basis so that we have a clear 
plan and a concerted effort on the part of the Administration 
to get results.
    We are working closely with the Department of Education now 
on reviewing our program, developing an action plan that 
includes the elements that are important to meet our statutory 
requirements, and to make sure we are in concert on the most 
important items that need to be addressed first.
    So with that, I appreciate Vickie Vasques being here. She 
is part of the team in trying to improve the performance we 
have in the program.
    Second, we are developing an action plan in concert with 
DOE. The action plan is broad and includes a lot of elements. 
That action plan was initially developed by the Department of 
the Interior and has been shared with the Department of 
Education. They are very graciously sharing it with their 
senior staff to give us suggestions on how to improve that.
    We are going through a process now of mapping out and flow-
charting all of the funds flow that goes through our education 
program. We have identified about 50 different streams of 
funding that go through the program. We are mapping out what 
all the requirements are for those streams and what performance 
is expected from them. And then we are looking at school 
construction to see what we can do to accelerate the pace of 
school construction to effectively and efficiently use up the 
unobligated balances that we have and actually get results of 
bricks and mortar buildings that are available for schools.
    We have an assignment going on right now with our education 
line officers. We have them all in this week and we are going 
through the process of trying to get ahead of the curve right 
now for 2005-06 education school year. We have provided to our 
education line officers all the accountability workbooks on a 
State-by-State basis where our schools are located so that they 
become very clear very early in the process of what standards 
they have to meet in order to pass our schools through the AYP 
goal line.
    They have an assignment to go back to each school that they 
have a relationship with to share the accountability workbook 
standards, to be clear about what is expected on a school-by-
school basis, to examine where we are currently, do the gap 
analysis between our current performance and what performance 
is acceptable, and develop a school-by-school action plan as to 
how we can drive that school across the goal line.
    That assignment needs to be done in about the next 2 months 
before we start the 2005-06 school year. I am looking forward 
to seeing the results from that so that we can be a proactive 
element in improving performance.
    Last, Mr. Chairman, I would like to share that this is a 
commitment from the Secretary on down. We had Secretary Norton 
in with our education line officers yesterday so that she could 
tell them personally that this is an important thing for us to 
get done; that educating these Indian kids is an important 
thing and that is a mission we need to do better at.
    With that, we would be happy to work with the committee in 
the future and I appreciate the opportunity to be here.
    [Prepared statement of Mr. Cason appears in appendix.]
    The Chairman. Thank you very much.
    Ms. Vasques.

   STATEMENT OF VICTORIA VASQUES, DIRECTOR, OFFICE OF INDIAN 
               EDUCATION, DEPARTMENT OF EDUCATION

    Ms. Vasques. Thank you, Mr. Chairman, members of the 
committee. On behalf of Secretary Spellings, let me thank you 
for this opportunity to appear before you to discuss the 
current status of Indian education.
    I serve as the assistant deputy secretary and director for 
the Office of Indian Education. I am also from the San Pasqual 
Band of Mission Indians in Southern California. I am here, as 
you mentioned, with my colleagues Darla Marburger and Tom 
Corwin.
    Today, I will provide an overview on the educational 
performance of American Indian and Alaska Native students from 
their early childhood years, for elementary and secondary 
education, and through the post-secondary education level. 
Collecting accurate data on the American Indian and Alaska 
Native population has been a long-term challenge for the 
department. Indian students are a highly diverse group. There 
are over 560 federally recognized tribes in the United States.
    Indian students, though, constitute a very small portion of 
the overall student population, and many Indian families reside 
in small towns and rural areas. For these reasons, it is 
difficult for any study to include a sufficient number of 
Indian students to yield accurate, high-quality data.
    I am pleased that the department in recent years has taken 
major action to collect, analyze and report useful high-quality 
data on the education status and needs of our Indian students. 
Our efforts have covered the schools operated or funded by the 
BIA, other schools that have high concentrations of Indian 
students, and Indian children and adults more generally.
    One example of this activity is our over-sampling of 
American Indian students in the national assessment of 
educational programs, NAEP, in order to generate adequate 
representation of Indian students in the NAEP. This will give 
us reliable national-level data on Indian students' performance 
in reading and math, adding a whole new subgroup of students to 
the Nation's report card.
    Indian students constitute about 1 percent of all students 
enrolled in public schools and often attend rural schools. Over 
one-half of all Indian students attend schools in small towns 
and rural areas. In 2002, there were approximately 628,000 
American Indian and Alaska Native students in public elementary 
and secondary schools, including BIA schools. Approximately 
582,000, over 90 percent, attended public schools, and 46,000 
attended schools administered by the BIA.
    Department of Education programs contribute a significant 
amount of funding to the BIA for the education of Indian 
students who attend BIA schools. The department has a 
longstanding partnership with the BIA over the administration 
of these programs. We expect to sign a new MOA, memorandum of 
agreement with the BIA covering No Child Left Behind issues 
very soon.
    My written statement provides many of the key statistics on 
various aspects of the educational status of American Indians 
and Alaska Natives. I will highlight just a few of them.
    First, the overall data from NAEP on Indian students show 
that their performance continues to lag below the national 
average on reading, math and science assessments. This is true 
for both 4th and 8th grade assessments. It is clear we have our 
work cut out for us in closing the achievements gaps. It is 
important to note, however, that before 2002 NAEP did not 
consistently assess enough Indian students to provide reliable 
information about their performance. The department has 
embarked on an effort to ensure that NAEP produces more 
reliable national-level data on the performance of Indian 
students. We now have a benchmark to measure Indian students' 
academic progress through the years.
    Our work also supports the department's accountability 
efforts. Disaggregated data are a key tenet of the 
accountability embedded in the No Child Left Behind Act. We 
will use NAEP data to measure the performance of Indian 
students and the programs that serve them over time.
    Second, I am pleased to report that in some States, 
including Arizona and North Dakota, we are seeing meaningful 
gains in achievement by Indian students.
    Third, high school dropout rates for Indian students 
continue to be too high. In addition, Indian students often 
have higher rates of absenteeism, suspension and expulsion than 
others.
    Fourth, with respect to higher education, the number of 
Indian students enrolling in colleges and universities has more 
than doubled in the last 25 years or so. The number of degrees 
awarded to Indian students increased dramatically between 1976 
and 2002.
    Mr. Chairman, the department is making a serious effort to 
produce up to date, high-quality data about Indian students. We 
have been working to collect and release data on this 
population so that we know how Indian students are doing and 
can adjust policies and provide resources to address the needs 
that the data show are most critical. We plan to publish four 
important documents on American Indian and Alaska Native 
students by the end of the year. One report will contain an 
overview of demographic characteristics of Indian students and 
further analysis of Indian student performance along a number 
of key indicators.
    Another will address the demographic and family 
characteristics and early mental and physical development of 9-
month-old American Indian and Alaska Native children. Two other 
reports, one on post-secondary education and Indian students, 
and another consisting of a special analysis of decennial 
census data on the Indian population are planned for release 
later in the year.
    Next year, we will release special NAEP reports that will 
provide information about the educational experience of 
American Indian and Alaska Native students and the role of 
their Indian culture in their education.
    Before I conclude, I would like to take 1 minute to talk 
about how NCLB holds great promise for improving the education 
and academic achievement of Indian students. Its emphasis on 
stronger accountability for all students and the use of 
desegregated data ensure that schools address the needs of all 
their students, including those of Indian students. NCLB's 
emphasis on teacher quality will require that all students, 
including Indian students, are taught by highly qualified 
teachers who are certified, hold a bachelor's degree, and have 
demonstrated knowledge of their subject matter.
    President Bush's Executive order which recognizes the 
unique educational and culturally related academic needs of 
Indian students will assist us in implementing NCLB. My office 
has taken a lead role in the implementation of that order. The 
department, in partnership with the Department of the Interior, 
just convened a national conference this past April which 
brought together representatives from Federal agencies, State 
educational agencies, tribal educational agencies and local 
officials. At the conference, we discussed how to implement 
NCLB in a manner that is consistent with tribal traditions, 
culture and language.
    It identified five key areas: Closing the achievement gap 
and appropriate assessment of Indian students; training and 
developing American Indian and Alaska Native teachers; 
promoting continuity of tribal traditions, language and 
culture; scientifically based research on Indian education and 
the training of American Indian and Alaska Native researchers; 
local, tribal, State, and Federal collaboration.
    The department's work in the immediate future will focus on 
developing solutions, strategies, resources and technical 
assistance in the areas for agencies that serve Indian 
children. There are significant achievement gaps between the 
American Indian and Alaska Native student population and the 
general population. Although Indian students have made some 
progress in recent decades and score higher than some other 
major ethnic and racial groups on some indicators, the Indian 
student population continues to be subject to significant risk 
factors that threaten their ability to improve their academic 
achievement and their general well being.
    Strategies to improve their education will need to take 
into account these risk factors, as well as the challenges of 
educating a culturally diverse population in rural and remote 
areas. Our efforts to collect reliable data on the Indian 
population have yielded a number of useful data sources that 
can be used to hold educational agencies that serve these 
students, and us, accountable for the performance of Indian 
students across this Nation.
    In closing, I applaud you, Mr. Chairman, and the other 
members of this committee for steadfastly confronting the 
challenges facing Indian education. I look forward to working 
with you, Mr. Cason and our tribal leadership as we reach a 
solution or solutions to ensure that future generations of our 
Indian students are not left behind.
    I thank you for this opportunity and I welcome your 
questions.
    [Prepared statement of Ms. Vasques appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Cason, on September 4, 2003 the GAO delivered its 
report to Congress as required by the No Child Left Behind Act, 
noting that BIA schools have certain characteristics that make 
them more costly to operate than the average public school. I 
certainly accept that thesis. The GAO noted, quote, ``the 
agency has little financial data to use in forming the budget 
that Interior proposes to the Congress.'' The GAO concluded the 
BIA has no formal mechanisms such as a needs assessment for 
determining how much funding is needed for instruction or 
transportation. Have you addressed those issues, Mr. Cason?
    Mr. Cason. Mr. Chairman, I do not know how completely they 
have been addressed. I will have Ed comment on that as well. He 
is probably more familiar with it. One thing that we are doing, 
though, Mr. Chairman, to make sure we get a comprehensive look 
at the evaluations that have been made about the education 
program is we are going through a process of pulling all the 
GAO reports, IG reports from the Department of the Interior, IG 
reports from the Department of Education and any other external 
evaluation that has been done. We are going through a process 
of cataloging all the funding recommendations from all those 
reports to actually give a definitive answer on what steps have 
been taken to implement responses to all of them.
    So I know we have that effort ongoing. I have seen a draft 
of that. I do not know in this particular case what has been 
done.
    So Ed, could you comment on that?
    The Chairman. That is a pretty fundamental and important 
issue that we do not have a needs assessment for determining 
how much funding is needed for instruction or transportation.
    Mr. Parisian, do you want to comment?
    Mr. Parisian. Yes; good morning, Mr. Chairman and members 
of the panel.
    What we are doing presently is putting together a data 
system nationally where we can collect that information. We do 
not have that currently available. We have a contract out. We 
hope to have that up by July 2006. Part of that GAO report had 
to do with getting information from our tribal grant schools. 
We need to work with them more closely to get accurate 
information that we can put into our data system so that we 
have it across the board, not just for our bureau-operated 
schools, but for the tribal grant schools that we also provide 
service to.
    The Chairman. You have 64 schools operated by the BIA?
    Mr. Parisian. Sir, 62 bureau-operated schools and 122 grant 
and contract schools.
    The Chairman. And it is going to take you until July 2006 
to find out what the instruction and transportation needs are 
for these schools? Please.
    Ms. Vasques, it is interesting that you were testifying to 
all the things that you are going to do to comply with NCLB. It 
was signed into law three-and-a-half years ago by the President 
of the United States. What have you done so far to implement 
NCLB?
    Ms. Vasques. Sir, we have gone out and met with all of 
our----
    The Chairman. So you have had meetings. Good.
    Ms. Vasques. Well, we have also been working with the BIA 
on their No Child Left Behind negotiated rulemaking. We have 
been working with the States.
    The Chairman. Have they completed that rulemaking?
    Ms. Vasques. Yes, sir; it was just finalized 1 week ago.
    Mr. Cason. Sir, the final regulations came into effect May 
31, 2005.
    Ms. Vasques. We have also been working very closely with 
the Counsel of Chief State School Officers, which are the State 
Chiefs that oversee the public education systems. They have now 
formed a Native American task force to work with us where we 
have highly populated areas of Indian students in their 
particular States. I think that was an area, in all honesty, 
that was missing in these discussions with No Child Left 
Behind.
    We see a lot of progress going from the State Chiefs and 
many Governors that are working with us on the challenges of No 
Child Left Behind, especially in those communities where the 
public----
    The Chairman. You are working with Governors to determine 
the needs on Indian reservations?
    Ms. Vasques. No; the Chief State Schools are working with 
their Governors because they are working for the State.
    The Chairman. What role does the State play in the 
administration of a BIA school?
    Ms. Vasques. I am speaking for the public schools, sir.
    The Chairman. The purpose of this hearing is to discuss the 
state of Indian education.
    Ms. Vasques. Yes, sir; 90-some percent of our Indian 
students attend the public schools.
    The Chairman. I understand that. We are talking about BIA 
schools.
    Ms. Vasques. We are working very closely with Jim Cason on 
the issues that he reported to you earlier on helping assist 
them with their action plan. He sat in a meeting with us with 
our senior-level officials and allowed us to be brutally honest 
on the issues that the Department of Education has with the BIA 
on their high-risk areas. For example, we are working with him 
on their program performance, their program outcomes, helping 
them with their human capital. We see a lot of issues with high 
turnover, teacher quality, management, the accountability 
assessment.
    The Chairman. What is the average salary of a teacher at a 
BIA-administered school, Ms. Vasques? An entry-level salary?
    Ms. Vasques. I do not know that answer.
    The Chairman. Are you familiar with an Office of Inspector 
General report that says the central office of the Office of 
Indian Education has not adequately managed its administrative 
funds, resulting in a failure to maximize monies available for 
distribution to Indian schools? Are you familiar with that 
report?
    Ms. Vasques. Somewhat, I am.
    The Chairman. Has any action been taken?
    Ms. Vasques. Several of our program offices are working 
very closely with the BIA to make sure that there is corrective 
action taking place with several fiscal years of funding.
    The Chairman. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    I am trying to understand this. I have heard the testimony 
here, Mr. Cason and Ms. Vasques. Some of it does not sound to 
me like it is in English. You are talking about all these 
acronyms and these programs and the coordination. I know money 
is not everything, but I do not understand what is happening 
with respect to funding. You do not have a needs assessment 
yet. I have been to many of these schools, as have my 
colleagues. We understand the shape they are in. We have GAO 
reports and Inspector General's reports that describe the 
desperate need to bring these BIA schools up to standards.
    Yet, let me go through the recommendations. Let me start 
with the tribal colleges. The President suggested we cut tribal 
colleges by $10 million. Is that a step forward or a step 
backward? What is the basis for saying we ought to cut funding 
for tribal colleges?
    Mr. Cason. Is that 2006 spending, Senator, that you are 
talking about?
    Senator Dorgan. Yes; the President's budget recommends 
cutting $10 million from the previously appropriated level of 
funding for tribal colleges. How does that advance Indian 
education?
    Mr. Cason. Taken in microcosm, I think you would say it 
probably does not. But as you know, Senator, when we go through 
the budgeting process, there are lots of considerations that 
enter into the decisions about where you place money, what the 
priorities are. The budgeting process with Indian country ends 
up being one that starts with a BIA tribal budget committee 
meeting. There is lots of discussion about what the relative 
priorities are there.
    There are discussions within the Department of the 
Interior, balancing the BIA budget against all the other 
budgets in the department. It goes to OMB and it comes up to 
Congress. There are lots of people that have a role in the 
process.
    Senator Dorgan. I understand that process.
    Mr. Cason. So if you just look at it in a microcosm and 
that is the only consideration in developing a budget, you 
would have, say, 1 dozen. Within the broader context of all the 
priorities we have, I am not sure who influenced the process to 
arrive at that conclusion in the past budget.
    Senator Dorgan. It sounds to me like you are saying do not 
take a close look. ``Microcosm'' is a close look.
    Mr. Cason. No; it needs a close look.
    Senator Dorgan. Well, a close look would suggest that the 
President's budget cut funding for tribal colleges by $10 
million; cut funding for replacement school construction from 
$105 million to $43 million; and cut funding for facilities and 
improvement repair. I do not understand this. How can you come 
and talk about a commitment to education when you look at these 
cuts, yet we know the needs are so great. And then you say, 
well, you can't look at it that way. You are taking a close 
look. You are looking it in microcosm.
    All I know is that Donald Trump is going to get another big 
tax cut if the priorities that exist through the process you 
described somehow prevail.
    With tribal colleges, for example, or facilities 
improvement repair of these schools that are in desperate need 
of repair, and you know what the GAO and the IGs have said, all 
I know is that if you take a close look, and that is what we 
are trying to do this morning, this does not meet the test of 
commonsense. I am just asking the question, who makes these 
decisions and why? And do you support the decisions?
    Mr. Cason. Well, Senator, on this particular issue about 
the school construction, as I recall you and I had that 
discussion when I testified on the budget, that for 2006 the 
underlying rationale for the cuts in that program were 
associated with the pace at which we are getting school 
construction done. Within that, we had a very large unobligated 
balance in the school construction fund. So basically, we were 
looking at trying to get caught up in getting these schools 
constructed we already had funding for which we had not been 
able to get done.
    If you go back and look at it historically, the President 
has placed a huge amount of emphasis on additional school 
construction. If I recall the figures correctly, we have 
invested somewhere on the order of $1.5 billion new dollars 
into the process or asked for and Congress has been gracious 
enough to give us about $1.5 billion over the last four years 
for new school construction. That was a substantial increase 
over the amount of monies that were available in the prior 8 
years.
    We have been attempting to increase our ability or capacity 
to build schools much faster and get those dollars used 
effectively. That is exactly what we are doing right now, to be 
able to use the unobligated balances during 2006.
    Senator Dorgan. Well, all I know is that this does not add 
up. Mr. Chairman, I am the Ranking Member on the Interior 
Appropriations Subcommittee. We just marked up that bill. We 
are spending $500 million less than we spent last year. This is 
not a cut in the rate of growth. We had $500 million less than 
we had the previous year. We have a fiscal policy that is just 
off the tracks.
    So what happens? Indian children who go to these schools 
are going to pay the price for it because we are not willing to 
own up to the needs. I think the chairman sitting next to me 
seemed to express some concern, perhaps that is too mild a 
word, at the fact that we do not have a needs assessment. A 
needs assessment ought to be the first criteria here. This is a 
needs assessment for the welfare of children. These are little 
kids that we send to these schools.
    I have seen these schools. I have been to these schools. I 
have talked on the floor of the Senate about a school with 150 
kids, one water fountain, two bathrooms, desks an inch apart. 
The fact is, we have to do better. I am not very impressed with 
the priorities. I do look at this in a microcosm, but if you 
are trying to run a tribal college system to give hope for 
people to get up and out of poverty and get training and skills 
and education, and then you see a recommendation saying let's 
cut it by $10 million, what kind of commitment is that to that 
system?
    I happen to think tribal colleges are enormously important 
because they allow people to go to college who otherwise could 
not go, because in their communities where they have extended 
families and can get child care and the other things, this 
system works. It allows people to go to college who otherwise 
would not get a college education.
    So I am just expressing some frustration that all the nice 
sounds you are making this morning are not matched by the 
commitment to fund that which we need to fund, in my judgment.
    Mr. Cason. Thank you, Senator. I think we both agree there 
is an important mission for us to serve in Indian Affairs at 
the Department of Education in getting Indian kids educated. 
That is an important mission and clearly, as I said in my 
opening statement, we are not doing enough to get the results 
that we need in that program.
    So we are going back to basically look at what is it that 
are the causal factors for why we are not being successful. If 
funding is one of those issues, that will be something on the 
plate with the Secretary and I to talk about.
    Senator Dorgan. Mr. Chairman, let me ask consent that a 
statement from Senator Inouye be entered in the record at the 
start of the hearing.
    The Chairman. Without objection.
    Senator Thomas, welcome.

   STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Sorry I was a little late and did not hear it all. We had 
some energy things going on, as you know, but I am very much 
interested in Indian education, of course.
    We have one BIA school on our reservations. I think 90 
percent of our Indian kids go to the other kind of schools, as 
a matter of fact. I am a little surprised to hear a little bit. 
I did not know that some of these things had an impact so much 
on it. I understand that there has been a $3.6 billion increase 
since 2001 for Indian education. In our State, we spend about 
$8,000 per pupil and the Indian schools spend over $9,000. Of 
course, spending is easy, but I did not know Bill Gates had 
anything to do with it, Frankly.
    Senator Dorgan. It is Donald Trump.
    Senator Thomas. Oh, Donald Trump. I am sorry. I got 
confused.
    Senator Dorgan. I could mention Bill Gates, though. 
[Laughter.]
    Senator Thomas. You mentioned trying to find some 
solutions. Just in broad terms, what do you think are the basic 
problems facing us in terms of Native American education? Just 
shortly form all three of you, very quickly, what are the major 
problems facing us?
    Ms. Vasques. It is important, and I apologize, Mr. 
Chairman, to not focus just on the BIA schools. It is important 
to note that the Department of Education provides almost 25 
percent of the Office of Indian Education program dollars for 
their education efforts. We also have seen major increases in 
the past few years in their special education and title I 
dollars.
    On the question that you ask----
    Senator Thomas. What do you think are the basic challenges 
facing you?
    Ms. Vasques. For us, I would have to say making education 
the number one priority for not only this committee, but our 
tribal leadership. Whenever I go out and speak, my number one 
challenge to those that will listen is to challenge our tribal 
leaders to put education on their agenda. Many times, I am 
asked to speak and I am at a sub-level meeting and not the 
General Assembly. Education, as you all have said so 
eloquently, should be number one on our agenda, on everyone's 
agenda. It is the answer to our economic prosperity.
    Senator Thomas. I am assuming you are saying it is not.
    Ms. Vasques. I think it is our number one agenda. I know it 
is our number one agenda, but I do not know if I feel that it 
is the number on agenda out there when I am working in the 
field.
    Senator Thomas. Mr. Cason.
    Mr. Cason. Senator, I have maybe a little different view 
within the Department of the Interior for the Indian education 
program. I think, first, there is not a clear set of 
expectations about roles and responsibilities to get the 
results that we need. We have a fairly complicated environment. 
Some of the schools are run by BIA directly and 122 of our 
schools are run through tribal grants where the tribe is 
essentially responsible for running the school.
    It is not entirely clear throughout the organization and 
with the tribes as to what the roles and responsibilities are 
to give performance results; what is acceptable; what is not 
acceptable; and having any clear mechanisms to do something 
about the unacceptable. So that is something we need to 
develop.
    Second, I think profile is part of the issue, that 
currently the education program resides within BIA, but it has 
not been the principal focus of BIA as opposed to other issues 
like trust, providing welfare services and general assistance. 
It is certainly an important program, but it has not had the 
profile that maybe it needs. That is one of the issues that we 
are taking a look at changing.
    Third, I think that local socio-economic considerations are 
a driver; that as this committee probably knows, Indian country 
in general is one of our poorest sub-populations. I was 
speaking with the director of BIA this morning. He had just 
gotten back from Pine Ridge and he told me that the 
unemployment rate on Pine Ridge is 89 percent. That is a 
terrible situation for us and it is a terrible situation from 
which you can send children to get them educated and have the 
kind of family support that they really need to participate in 
educational programs.
    Family support is a key issue, that there has to be an 
expectation on the role of parents to encourage their children 
to be in school, to participate in school, to excel at school. 
I know I have to do that with mine and it takes parents 
everywhere to be active participants in the process. In some 
cases where you do not have parents doing that, it becomes a 
problem.
    I think another area that is important for us is the 
leadership of the program within Interior. Right now, we are 
sitting in a position that Ed represents the only SES person in 
the Indian Education Program. We have about 5,000 employees 
there, and Ed is the SES person. So that is one of the issues 
that we are taking a look at, to add some leadership capability 
into the organization. That is not completely defined yet, but 
that is one of the things that we need to get done.
    Senator Thomas. Thank you. I have taken more than my time. 
Sorry.
    The Chairman. Thank you very much.
    Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman, and thank you to 
you and Senator Dorgan for holding this hearing.
    A special welcome to Dr. Roger Bordeaux, who is 
superintendent at Tiospa Zina School located on our Sisseton-
Wahpeton Reservation. I look forward to his testimony.
    I have competing obligations and will not be able to stay 
for the entire hearing, but there are a couple of points I want 
to raise and questions I have today.
    First, obviously, we must retain the appropriate area and 
agency technical support of our BIA schools. We have to be 
assured that the AYP does not realign or reduce the regional 
line officers in our region. If realignment is deemed 
necessary, I think this has to be done with true consultation 
with our affected tribal parties.
    Second, we continue to have financial problems and 
disagreements in South Dakota. Currently, the St. Francis and 
the Enemy Swim Schools have reached the construction stage, but 
we continue to have conflicts with the BIA over square-footage 
issues. We are at great risk of building new schools that will 
be inadequate from day one because of the square-footage 
issues. I know Enemy Swim in particular had an agreement with 
BIA and then the BIA seems to have reneged on its agreement 
about the square-footage being involved. I may submit written 
questions to you for a response to that.
    Another more immediate problem that is of great urgency has 
to do with our Crow Creek School on the Crow Creek Reservation. 
The dormitory for the Crow Creek School literally burnt to the 
ground. It is gone. The BIA has said that they can have some 
money that they have held back for gymnasium reconstruction, 
which is a separate matter. They have provided a modest amount 
of money, most of which will go for tearing down the burnt-out 
facility and taking care of the damage there. A small amount 
will be left for emergency dormitory space that they will have 
to put in this summer.
    However, the BIA has come up $4 million short for what is 
necessary for that temporary dormitory space. As a consequence, 
a good share of the students who attend Crow Creek will not 
longer be able to attend Crow Creek. That means that their 
budget falls off, the funding drops off, which means that they 
are going to have to fire faculty and staff because they are 
not going to have the budget for this fall.
    I am immensely frustrated that in an emergency situation 
like this, that reprogrammed or some sort of money could not be 
made available in order to at least accommodate the dormitory 
needs at Crow Creek so that they can open school this fall. 
Time is running. If we start now, it is going to be difficult 
to get all of this done. There is a South Dakota corporation 
working with the Governor that has volunteered to put Crow 
Creek at the head of the line for the temporary housing space, 
but I see just utter inaction on the part of the BIA at this 
point about what are you going to do about the Crow Creek 
School with the crisis that they have right now, if they are 
going to in fact be up and running this summer.
    Now, Crow Creek is number nine on the facilities list, so 
ultimately I am certain they will get a new proper school, but 
what do you do between now and the fall? This is a matter of 
great urgent crisis that frankly the BIA has not been 
responsive about. I find this enormously frustrating.
    Let me ask Mr. Cason, what should we do? What should the 
people of Crow Creek do and what should their children do?
    Mr. Cason. Well, Senator, I am pleased that you brought 
that up. That is an issue that I dealt with personally so I 
have a substantially different view of the circumstances than 
you have just expressed. In fact, the BIA started working on 
providing assistance immediately after the fire. Our SES staff 
person in charge of facilities, a guy named Jack Reiver was in 
contact with the tribe immediately thereafter to assess what 
their needs were.
    We had extensive discussions with a person for the tribe. I 
talked to the tribal chairman myself. I talked to the guy for 
the tribe that actually works on the schools, that is in charge 
of the schools. I talked to the Governor's staff person, I 
think it was his chief of staff, that was working on this 
issue.
    Basically, what we tried to work out was a partnering 
relationship, who could contribute what, to get them back up. 
The objective shared by all was to ensure that they could be 
back in operation August of this year, so that they could have 
a complete school year. That basically entailed providing a 
replacement temporary dining facility and kitchen, which the 
BIA is contributing. It also involved dormitory space, as you 
mentioned.
    The issue on the dormitory space is we very carefully 
looked at what the need was in light of being a temporary 
solution. What we found is that at the beginning of the last 
school year, there were approximately 200 students that were 
dormed; that at the time of the fire there were approximately 
120 students that were dormed; that in the aftermath of the 
fire, the tribe managed to house the approximately 40 to 50 
students who were brought in off-reservation from other 
reservations at a local hotel facility, and that they were able 
to successfully employ a busing program to bus all the other 
students that had been living in the dorm, but actually lived 
on the reservation.
    So we had some flexibility in how we addressed the issue. 
The critical mass was basically the 40 or 50 students from off 
the reservation. We definitely needed space for them. We needed 
space for another amount of students that lived on the 
reservation, could have been bused, but maybe were not in 
housing situations that were optimal.
    What we worked out with the tribe is that we could 
basically provide approximately $600,000 to build temporary 
dorm space, the equivalent to about 120 students. We also 
worked out with the tribe that if the Governor's office could 
come through with another $300,000 on environmental assessment, 
we would move our $300,000 that we had dedicated for that into 
dormitory space. It is my understanding at this point that that 
is what we are doing.
    So we have not attempted to replicate in toto temporary 
dormitory space equivalent to the maximum number of students 
that had been in the dorm, but we tried to give a lot of 
flexibility to the tribe by providing temporary dorm space that 
would accommodate all of the off-reservation students and a 
large number of on-reservation students who needed better 
housing.
    Senator Johnson. We will follow-up with you on that. I 
appreciate that you have been in communication with the tribe.
    One of the questions that was raised to me while I was 
there, and I do not know if this is conveyed to me correctly or 
not, but the school indicated and the tribe indicated to me 
that previously the tribe had insured the school facility, that 
they were directed by the BIA to drop their insurance. They did 
maintain insurance on the contents, but not of the building 
itself. Is that correct? Is that BIA policy to tell tribes not 
to insure school facilities and BIA facilities?
    Mr. Cason. I asked that same question, sir, and I do not 
believe it is BIA policy, but we were trying to determine who 
exactly told them that. We have not gotten a name on that yet, 
so we tried to follow up on that because it is not our policy 
to say, no, do not insure your buildings. Actually, we 
recommend that they do insure their buildings.
    Senator Johnson. I would appreciate your getting to the 
bottom of this a little bit. It sounded sort of 
counterintuitive, but I did want to see if you are pursuing in 
fact what occurred in that situation.
    Mr. Cason. We are. And Senator, would you mind if I just 
follow-up on a couple of other things.
    You had mentioned the name of a school that there was a 
square-foot problem in. What is the name of that?
    Senator Johnson. Yes; we have two schools. One is at St. 
Francis and the other is at Enemy Swim. Enemy Swim is on the 
Sisseton-Wahpeton Reservation and St. Francis is on the 
Rosebud.
    Mr. Cason. So it is ``enemy'' as in a person I do not like? 
Enemy Swim?
    Senator Johnson. Yes; Enemy Swim.
    Mr. Cason. Okay. We will follow-up on that.
    Senator Johnson. I appreciate your following up on that.
    My last comment, and I know that the committee needs to 
move on, I really do think that, and I do not lay this blame at 
the feet of the BIA particularly, but I am enormously 
frustrated about our national priorities. The level of poverty 
on our Indian reservations in South Dakota is simply immense. 
It is breathtaking, the multiplicity of problems that these 
people face and there is no silver bullet out there. I know 
that.
    But I do believe that education is one of the keys, from 
early Head Start all the way through our tribal college 
programs. We need a larger pool of Native American teachers and 
nurses and managers and entrepreneurs who become role models 
for other young people. We need more of a private sector 
economic activity going on, and only education and job skills 
can make that happen.
    I share Senator Dorgan's concern about overall levels of 
funding and priorities. He and I have worked on the college 
funding issue, a $10 million recommendation for reduction in 
funding. When you come back from Pine Ridge, Oglala Lakota 
College is the college that happens to be on the Pine Ridge. We 
have several. They are accredited. They are doing great work. 
They are creating a new generation of leaders, but they are 
operating on a per capita per student funding level of about 
half of what a community college anywhere else in the country 
would be expected to have.
    It seems to me at a time when the Administration is talking 
about a $10-million cut there, at the same time, and I know 
some people do not like it when some of us bring this up, but 
the cost of the extension of tax cuts given to people who make 
over $1 million per year, not millionaires, people who make 
over $1 million a year, the cost to the Treasury in fiscal year 
2006 will be $32 billion drained out of the Treasury. And then 
we say, well, we do not have $10 million for Indian kids to get 
a college education.
    I just find that mind-boggling as a priority for this, the 
richest Nation on Earth, to be essentially pulling up the 
ladder for academic success for a new generation of young 
people who we are in dire need of to provide leadership on 
these reservations. It is so penny-wise and pound-foolish and a 
distortion of what I think really are values as Americans ought 
to be. I share Senator Dorgan's distress about that. I know I 
am talking into the wind here, but I simply cannot conclude my 
remarks without making reference to the priorities and the 
values that Senator Dorgan and I share.
    Thank you.
    The Chairman. Thank you very much, Senator Johnson.
    I thank the witnesses. I would like to just comment as you 
depart that you are in a process, according to your testimony, 
in making various assessments, completing studies and plans of 
action. We probably will have another hearing perhaps in the 
fall to and maybe you can give us some more definitive results 
at that time. It might be appropriate then.
    Mr. Cason. That would be great, Mr. Chairman.
    The Chairman. Thank you very much. I thank the witnesses.
    Ms. Vasques. Thank you.
    The Chairman. The next panel is Nick Lowery. He is the 
acting chairman of the National Fund for Excellence in American 
Indian Education; David Beaulieu, who is the president of the 
National Indian Education Association; Joe McDonald, who is the 
president of the Salish Kootenai College in Pablo, MT. He is 
representing the American Indian Higher Education Consortium. 
And Roger Bordeaux, who is the superintendent of Tiospa Zina 
Tribal School and executive director of the Association of 
Community Tribal Schools in Sisseton, SD.
    I welcome the witnesses. All of your complete written 
statements will be made part of the record. We will begin with 
you, Mr. Lowery.

 STATEMENT OF NICK LOWERY, ACTING CHAIRMAN, NATIONAL FUND FOR 
         EXCELLENCE IN AMERICAN INDIAN EDUCATION, INC.

    Mr. Lowery. Good morning, Senator McCain. It is a true 
honor to be here and to represent the outstanding board of 
directors of the National Fund, one of whom is next to me.
    I ask that a copy of my written testimony, along with the 
attached proposed draft amendment language be accepted in the 
record of this hearing.
    The Chairman. Without objection.
    Mr. Lowery. Thank you.
    I represent the National Fund for Excellence in American 
Indian Education, known as the National Fund. The National Fund 
is a charitable foundation first authorized by Federal statute 
almost 5 years ago and initially known as the American Indian 
Education Foundation. I am here today to provide you with a 
brief progress report, as well as to discuss certain changes to 
our statutory charter that would provide the National Fund with 
some essential administrative flexibility and better safeguard 
its funding base and its purpose.
    The National Fund was authorized by Public Law 107-568, the 
Omnibus Indian Advancement Act of 2000. The primary purpose of 
the National Fund is to encourage, accept and administer 
donations to support the mission of the Office of Indian 
Education Programs. There are currently an estimated 49,000 
students in 184 schools, as you heard earlier. In addition, 
perhaps as many as 900,000, if you believe the census, American 
Indian students are educated in public schools in 50 States, 
enrolled in about 10,000 school districts.
    Like those in BIA schools, many often exist below the radar 
screen of society. Most confront high rates of apathy, 
alienation, alcoholism, teenage suicide, teenage pregnancy, and 
gang violence. No one here, I believe, denies that more must be 
done to reach, train, mentor and inspire our most precious 
resource, and no one here, I believe, denies that we must do 
more to help Native American youth embrace a robust self-
determination and higher destiny.
    The history of our formation efforts have been problematic, 
to say the least. When the foundation was authorized in late 
2000, Congress directed the Secretary of the Interior to 
appoint its board and provide it with financial support. There 
are several models for the foundation in the sense that they 
were initially created by Congress, given birth within an 
agency such as Interior, with the intent and the eventual 
result that they would become fully independent entities. Two 
of those, the National Park Foundation and the Fish and 
Wildlife Foundation are exemplified to my right.
    The board was sworn in in March 2003. Since that time, we 
have met on four occasions to set priorities and plan for the 
future independence and effectiveness and impact of the 
foundation. First, the name change. The initial obstacle in 
incorporating into filing the necessary application for 
nonprofit tax-exempt status was the discovery in November 2002 
that another organization held prior and superior legal rights 
to the same name, the American Indian Education Foundation, 
given our foundation by Congress in late 2000.
    It took us a full year, Mr. Chairman, to change our name, 
which is now the National Fund. We are grateful to former 
Chairman Ben Nighthorse Campbell and other members of this 
committee, as well as Representative Rick Renzi for assistance 
in securing the name change. It should be noted that during 
this time, there was nominal support from the Department of the 
Interior for the name change.
    The National Fund was incorporated in the District of 
Columbia in July 2004. Subsequent to that, as soon as its name 
change statute was signed and shortly thereafter, we filed our 
application for nonprofit tax-exempt status. In November 2004, 
we received our determination letter from the Internal Revenue 
Service.
    Let me just go briefly over the obstacles we need to remove 
to allow us to achieve effectiveness and impact on some of 
those issues that were addressed earlier today. At this point, 
the board of directors of the National Fund has identified 
several obstacles. What follows is our description.
    First of all, redesignation of the chief operating officer. 
The authorizing statute oddly requires the chief operating 
officer of the foundation, who is Dave Beaulieu, actually, that 
he must be a board member who is secretary to the board of 
directors.
    A second is adjustment to the ceiling set on administrative 
costs. As you see from this chart, neither the National Park 
Foundation, the Fish and Wildlife Foundation, indeed we know of 
no similar restrictions being placed upon other similar 
fundraising organizations that need to spend money in order to 
raise money.
    We might suggest that the most efficient way to do this 
would be to extend the section 501(l) of the original 
legislation, which is a waiver, and extend that through fiscal 
year 2007. Any number of articles, including an article from 
the Center for Philanthropy at Indiana State mention the 
importance of setting up effective infrastructure at the 
beginning of an organization to make it achieve its mission.
    Second, repeal of reimbursement requirements. Once again, 
this is something that is not required of the National Park 
Foundation or the Fish and Wildlife Foundation. We would like 
to see this also repealed because fundamentally, we need to 
maximize the dollars available, as you just talked about, for 
the classroom and the hearts and minds of Native American 
students, not simply to reimburse the Secretary of the 
Interior.
    Finally, requests for oversight assistance to transfer 
donated funds. We met with Jim Cason yesterday and are trying 
to work out transfer of funds. We hope this will be followed-
through on. We are optimistic that it will, but it has been 
quite a problematic process. In addition to releasing these 
funds in short order, which amount to only $200,000 at this 
point, we will ask the committee and the Congress to work with 
us to authorize and fund an endowment appropriation by which we 
can begin to operate the National Fund and raise private 
contributions and offer the program services that were in our 
initial charter.
    In conclusion, the National Fund's board of directors 
desires this committee to know that despite all of the 
obstacles identified along the way, we are proceeding as best 
we can, given that we have no accessible resources. The actual 
process of putting the organization together highlights new 
challenges, all of which were unanticipated by the National 
Fund's originators and sponsors. Without any funding, the 
foundation board and staff have begun to identify private 
sources of support and are drafting grant fund proposals that 
will generate some revenue.
    Our testimony reflects a summary of the concerns and 
accomplishments of the board of directors of the National Fund 
for Excellence in American Indian Education. The board took an 
oath, Mr. Chairman, to serve the best interests of American 
Indian education. We request the committee's help in modifying 
the statute, as well as providing some assistance in gaining 
greater financial support for the fund.
    We have attached proposed draft legislation on the 
statutory amendments. An estimated 60 percent of the 49,000 
students in the 184 BIA schools are dropping out. Approximately 
three-fourths of schools in the system are failing the No Child 
Left Behind annual yearly progress standards. This does not 
include the up to 900,000 potential Native students at non-BIA 
schools. The time is now to do all we can to build as much 
sense of urgency, leadership, vision and capacity into the 
system as we can.
    Mr. Chairman, I will conclude by simply saying we have an 
outstanding board of directors. David Beaulieu, his track 
record speaks for itself, as a former president. He is now the 
current president of the National Indian Education Association. 
He was the former director of Human Resources for the State of 
Minnesota. Sharon Darling is a founder and president of the 
National Center for Family Literacy. She is an internationally 
recognized leader in the field of family literacy and has 
raised $80 million for family literacy. John Guevremont is the 
COO of the Mashantucket Pequot Tribe, of which he is a member 
and which is taking a more national role in pursuing Indian 
education benefits and improvements.
    Regis Pecos is currently the chief of staff to the New 
Mexico Speaker of the House. He is a Princeton graduate and is 
the first American Indian appointed to the Board of Regents of 
Princeton. Jo-Anne Stately is a member of the White Earth 
Ojibway Tribe. She currently serves as president of the Native 
Americans in Philanthropy and is overseeing millions of dollars 
of grants for Native American projects. Linda Sue Warner 
currently works as associate vice chancellor for the Tennessee 
Board of Regents. She is a member of the Comanche Tribe of 
Oklahoma.
    And finally, Gwen Shunatona, who currently works as 
director of the Prairie Band Potawatomi Nation Education 
Office. Myself, I worked in the Office of National Service for 
President Bush and President Clinton. I was cofounder of Native 
Vision, which is beginning today, actually, in New Mexico with 
800 young athletes from 30 tribes. I am founder of Nation 
Building for Native Youth, which is a leadership and self-
governance program in keeping with the vision of recently 
departed Secretary of Indian Affairs Dave Anderson. I also 
happened to play almost 20 years in the National Football 
League, which I think actually has helped me see the impact 
that role models can have on young people if they are given the 
opportunity.
    Mr. Chairman, on behalf of the board of directors, I wish 
to extend to you and the members of the committee our gratitude 
for this opportunity to testify at the hearing, and thank you 
for the time and attention you have given us and our concerns.
    Thank you.
    [Prepared statement of Mr. Lowery appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Beaulieu.

    STATEMENT OF DAVID BEAULIEU, PRESIDENT, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Mr. Beaulieu. Chairman McCain, members of the committee, my 
name is David Beaulieu. I am a member of the Minnesota Chippewa 
Tribe from the White Earth Reservation, and president of the 
National Indian Education Association.
    The National Indian Education Association has within the 
last year begun to focus, and we encourage the committee to 
also focus comprehensively on the needs of Native children in 
light of the long and growing health and overall needs of 
Native children. Mental health issues, including high levels of 
substance abuse, suicide rates, poor housing and health 
conditions all impact the capacity of Native children to learn 
and schools to be responsive to their principal education 
purposes. We must comprehensively develop strategies that 
engage families, communities and tribes in every aspect of the 
care and education of Native children.
    Although the National Indian Education Association supports 
the broad-based principles of accountability and documented 
results of No Child Left Behind, there is widespread and 
growing concern about the many obstacles that the NCLB presents 
to Indian communities who often live in remote, isolated and 
economically disadvantaged communities. Specifically as 
detailed in our written testimony, we have identified many 
factors that we think are important to note, specifically 
financial resources. We believe that schools serving Native 
students receive inadequate levels of funding. As noted in the 
September 2003 GAO report on BIA schools, the student 
population is characterized by factors that are generally 
associated with higher costs in education.
    We simply need monies to invest in Indian education. This 
lack of investment, combined with the shortened time frame for 
results and the focus on attempting to meet tests that often 
are incompatible with actually documented results that are 
being accomplished, are causing in a sense a train wreck. Our 
schools are often feeling in crisis. Many positive and 
wonderful aspects of the educational programs are being 
eliminated to focus on tests and driving performance to test 
results, without considering the broad-based quality of 
educational programs serving Indian children.
    Many of our school officials and others are reporting, or 
parents and tribal leaders are reporting that students often 
bear the responsibility of schools not being able to accomplish 
results and are being identified as the reason why. There 
appears to be a growing incongruence between the purposes of 
title VII within No Child Left Behind and the general operating 
principles, and consequently the implementation of NCLB by 
States and the BIA for schools with Native students.
    Title VII, which expresses a purpose of meeting the unique 
education and culturally related needs of Native students so 
that they can achieve the same high standard as other students 
is not sustained or supported in the general operating 
provisions of the statute in a way that will allow for the 
development of congruent educational programs and services 
consistent with the purposes of title VII. Instead, the 
approach appears to be increasingly focused on providing extra 
time for practice in teaching to the test.
    In 1997, the GAO issued a report that documented an 
inventory of repair needs for educational facilities totaling 
$754 million. Since then, the backlog for construction and 
repair is reported to have grown to $942 million. Completing 
construction of a high school since 2001, while progress, is 
not enough. The need for additional school construction dollars 
is so great that there should be no slow-down in 
appropriations. Instead, there should be an increased effort to 
get tribes and the BIA to work more efficiently on completing 
school construction projects, recognizing that schools take 
time to plan and build.
    On an average, the BIA education buildings are 60 years 
old; 65 percent of BIA school administrators report one or more 
school buildings in inadequate physical condition. NIEA 
strongly opposes the realignment and restructuring of the 
Office of Indian Education Programs within the BIA that will 
cut the total number of education line officers from 23 to 11 
and cut the funding of these offices by 18 percent. Since the 
function of these offices has significantly increased due to 
the passage of NCLB, NIEA believes the offices should be 
expanded, rather than reduced, to ensure timely service to BIA 
schools.
    The National Indian Education Association opposes a 
proposal by the Department of the Interior to decrease the 
educational line officers and encourages the Department of the 
Interior to work both with BIA-operated and tribal grant 
schools on school improvement and efforts in training.
    In addition, the NIEA requests the committee to probe the 
Department of the Interior as to why the Office of the Director 
of the Office of Indian Education Programs has remained vacant 
for almost a full year. We understand there is an effort at the 
BIA to elevate the director's position and I hope the position 
will remain an Indian preference.
    NIEA has been holding its own field hearings in Indian 
country on the No Child Left Behind, and will publish a report 
in October that outlines the information gathered at these 
hearings and provides recommendations for legislative 
amendments to existing law. We have held hearings at Window 
Rock in the Navajo Nation; Tacoma in the Northwest; Montana; 
Green Bay with the National Congress of American Indians; and 
in Albuquerque. And we intend to hold hearings in Oklahoma and 
in South Dakota as well.
    Our constituency is becoming ever more alarmed. We are now 
receiving testimony from tribal chairs and council people, as 
well as educators, about their concerns with the statute and 
what is happening to Indian education generally.
    The National Indian Education Association encourages the 
committee to conduct field hearings on NCLB and Indian 
education in Indian country, and suggests that the committee 
consider holding their own field hearings and include it at the 
National Indian Education Association convention in October, 
between the 6th and 9th, in Denver, CO.
    In closing, true success in Native education will come only 
when Native students are receiving high-quality education that 
not only prepares them for the demands of contemporary society, 
but also thoroughly grounds them in their own history, culture 
and language.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Beaulieu appears in appendix.]
    The Chairman. Thank you very much.
    Dr. McDonald, welcome.

STATEMENT OF JOE McDONALD, PRESIDENT, SALISH KOOTENAI COLLEGE, 
                   REPRESENTING THE AMERICAN 
               INDIAN HIGHER EDUCATION CONSORTIUM

    Mr. McDonald. Thank you, Chairman McCain and distinguished 
members of the committee.
    On behalf of the 35 tribal colleges and universities which 
make up the American Indian Higher Education Consortium, I 
thank you for this opportunity to testify.
    My name is Joe McDonald. I am a member of the Confederated 
Salish Kootenai Tribe and president of Salish Kootenai College, 
which is located on the Flathead Indian Reservation. Our 
college was chartered in 1977 for the simple reason of the 
near-complete failure of higher education in the United States 
for American Indians.
    In 1935, there were 570 American Indians in college. After 
World War II, in 1957, there were 5,700 American Indians in 
college. In 1968, we had 181 American Indians graduate from 
college in the whole United States. There was a horrendous 
report from GAO in 1976 on the condition of American Indians 
and higher education. That led a lot to the formation of the 
tribal colleges.
    Our college has grown from a very small college to 
relatively large among the tribal colleges. We offer 6 bachelor 
degrees, 14 associate degrees, and 70 certificate programs. 
Last Saturday at graduation, we awarded 161 degrees to American 
Indians from 40 different tribes.
    Over the past 30 years, the idea of tribal institutions of 
education has spread throughout Indian country. Today, despite 
severe budget cuts and inequities in Federal budgets, there are 
35 tribal colleges and universities in 13 States, and we have 
upwards of 30,000 students attending from 250 federally 
recognized tribes.
    I have some key issues I would like to discuss this 
morning. One is general core funding. Despite trust 
responsibilities and treaty obligations, the Government has 
over the years not considered funding of American Indian higher 
education a priority. For the past 24 years since the initial 
funding of the Tribal College Act, we have been chronically 
underfunded.
    To illustrate the degree of inadequate funding, the current 
authorized level for tribal college operations, which is $6,000 
per Indian student, has the same buying power, when you 
consider inflation, as the initial fiscal year 1981 
appropriation which was $2,800 per student. Despite the much-
appreciated increases that Congress has appropriated over the 
last several years, we are still receiving only about 75 
percent of the authorized level.
    What we would like to talk about is forward-funding. If the 
tribal colleges' accounts were to be forward-funded when 
appropriations are not completed by October 1 of any year, 
which has become more the norm than an exception, we would not 
have to identify emergency lines of credit. It is really 
creating cash-flow problems at many of the tribal colleges, and 
they have to borrow money then to continue until the money 
comes to them. The delayed appropriations, or even less than 
timely distribution of funds after appropriations are 
completed, make it really difficult to plan and project 
operating funding needs. It hamstrings us in many ways.
    In short, when funds are not available on October 1, tribal 
colleges many of them are forced into, a borrowing status. It 
is a crisis of confidence with faculty, staff, with everyone. 
So forward-funding would go a long ways for us.
    The HEA title III is a very important program on us. It 
affords us the ability to fulfill a vital role in providing 
access to higher education. We would like to have formula 
funding for title III. Tribal colleges would clearly benefit 
from formula funding this program. Right now, they are 
competitive grants and at the end of each competitive grant, we 
have to realign ourselves and do something different. In the 5 
years, you get something going, it is going well, then you have 
to drop it and go to something else. It is competitive and it 
may not even be awarded if you are not successful 
competitively.
    So if we could get that changed so TCU-title III became 
formula-funded, it would be much better. Section 102 of S. 
2539, a bipartisan bill introduced in the 108th Congress and 
referred to this committee includes language that would 
accomplish this recommendation.
    The National Science Foundation TCU initiative was created 
to help our institutions develop and expand high-quality 
science, technology, engineering and mathematics called STEM. 
We have had great success with STEM. We have encouraged a lot 
of young Indian people to go into science and mathematics 
fields. Colleges have increased their math participation 
greatly as a result of STEM. Currently, the United States is 
trending toward a shortage of scientists, mathematicians, 
engineers, and researchers, and all of the Nation's 
institutions of higher education must begin graduating more 
students in science, engineering and mathematics or STEM 
fields, or we will not have the workforce needed to stay 
competitive.
    To help remedy this, we propose the creation of a new 
section under HEA Title III, Part A, to establish programs that 
will allow for more efficient and effective application and 
administration of STEM-related programs. So Mr. Chairman, 
because NSF has committed increasingly more of its resources 
towards expanding basic scientific research and strengthening 
graduate programs, we believe the program should be moved to 
the Department of Education, Office of Post-Secondary 
Education, in conjunction with the tribal colleges' title III 
program.
    Equally as important as institutional development programs 
are programs that focus on student development and capacity. 
The Department of Education's TRIO student support service 
program is critical to tribal colleges. However, the fiscal 
year 2005 program competition resulted in 25 percent of the 
tribal colleges that had student support service grants losing 
their program funding. The grant-scoring cutoff for 
institutions that would receive an award was 99.33, which is 
very, very competitive.
    In September 2003, the department recognized that many of 
our institutions face any number of challenges to operating 
high-quality accountable TRIO projects and awarded supplemental 
grants to each of the tribal colleges that were administering a 
student support services grant.
    Simultaneously, the TRIO Training Institute at my 
institution, Salish Kootenai College, received additional funds 
to support the collective efforts of these colleges to improve 
their TRIO-SSS projects. So we did this and we did this very, 
very successfully. We worked with AIHEC. We worked with the 
Council for Opportunity in Education. We used the successful 
TRIO program officers throughout universities and colleges in 
America. In a short time, the project had made tremendous 
progress we really made a lot of improvement in these programs. 
So we would like Congress to encourage the Department of 
Education to extend for a minimum of 2 years the funding of 
these programs.
    I know that Mr. Parisian talked about data. We have been 
collecting our own data under a program called American Indian 
Measures of Success [AIMS]. We are very excited about it 
because it not only takes into consideration the data that the 
BIA requires, but also takes into consideration what IPEDS 
wants. We think that we are on to something. We have not seen 
the final product, but we think that it contains all the data 
that we would need. We encourage Congress to consider that AIMS 
data collections be adopted as a primary mechanism for data 
collection for all TCU Federal programs.
    The Chairman. Dr. McDonald, you are far exceeding your 
time, but please proceed.
    Mr. McDonald. Okay, really quickly.
    Technical assistance contracts, we would like to make sure 
that when a technical assistance contract is awarded by a 
Federal department to help an Indian program, that it be 
awarded to an Indian organization or somebody that understands 
Indians.
    I am sorry for exceeding my time, Senator. Thank you.
    [Prepared statement of Mr. McDonald appears in appendix.]
    The Chairman. Not at all, Doctor. Your complete statement 
is made part of the record. I did have a chance to read it last 
night and I thank you for not only your testimony, but your 
outstanding efforts on behalf of Native American education.
    Dr. Bordeaux.

  STATEMENT OF ROGER BORDEAUX, SUPERINTENDENT OF TIOSPA ZINA 
  TRIBAL SCHOOL AND EXECUTIVE DIRECTOR OF THE ASSOCIATION OF 
                 COMMUNITY TRIBAL SCHOOLS, INC.

    Mr. Bordeaux. Mr. Chairman, thank you for giving me the 
opportunity to come into town today and testify. I am a Si 
Tanka Lakota from the Rosebud Reservation in South Dakota and 
currently working for the Sisseton-Wahpeton up in North and 
South Dakota, in the northeastern part.
    I would like to first respond to something that you said 
and something that Mr. Cason said. You talked about academic 
achievement for Indian kids. On the second page of my testimony 
is one source of achievement data from our school, which 
identifies anywhere from 50 to 75 percent of our students are 
proficient or advanced according to the bureau's definition in 
different areas.
    One of the problems that we see with the No Child Left 
Behind is when you have to desegregate data and look at the 
disaggregated data that is a good thing. But when you determine 
a whole school's academic achievement or making adequate yearly 
progress based on sometimes one or two children, and in our 
case children with handicapped conditions, one or two children 
could put the whole school in jeopardy just because of the way 
the thing is structure.
    So this clearly outlines the difference between looking at 
the total population and then looking at the population without 
the special education students. So I just wanted to make sure 
that you get a chance to look at that data.
    Another thing that kind of disturbed me when Mr. Cason was 
talking this morning. Their solution for improving schools and 
improving academics of Indian children appears to be adding 
more SES positions and high-level management positions within 
the bureau, which is going to solve the problem. I would almost 
venture to guess that I would be willing to bet part of my 
salary that that is not going to make a difference over time. 
As a matter of fact, they presented a PowerPoint earlier in the 
week which I would like to present as part of the record.
    It looks like at least there are seven SES positions in 
their plan for education, and probably 10 to 15 GS-15's or 
higher. All of those positions probably get anywhere from let's 
say $110,000 to $150,000 a year in salary, plus fringe and 
everything else. So if they are going to spend $2 million or $3 
million, I would suggest that they spend it at the school-level 
in the classrooms instead at senior management-level positions.
    I know that that is the case because I would also like to 
present and put as part of the record part of their internal 
documents for fiscal year 2007. Part of their budget request 
discussion includes taking $3.4 million from ISEP and using 
that money for that senior management stuff. So they are 
directly taking money from children and trying to set up this 
system. I do not think that is going to work and I do not think 
it will make that much of a difference.
    And then one other thing I would like to present, which is 
at the end of my testimony, is a letter from Senator Dole to 
Senator Cochran that deals with a food service program in 
trying to fund a pilot program within the Child Nutrition 
Program to allow for schools, for their free and reduced lunch 
meal, to set up a program so they can use the WIC criteria 
instead of the other criteria, which would allow more children 
not to have to pay for lunches, especially since Senator 
Johnson talked specifically about 90 percent unemployment rate 
on the reservation in Pine Ridge. That would be something that 
could really help them.
    So I would like to present that and make it part of the 
record. A couple of other things that I would like to do before 
I get done is talk about three things. One is I think over the 
last 3 to 5 years the bureau itself and the structure has 
allowed the misuse or misappropriation of available resources. 
I know for sure that there is special education money that 
comes from the Department of Education that goes to the BIA. 
Upward of 20 percent to 30 percent is kept at levels and never 
gets to the schools. I think that needs to change because the 
money that you should be spending is stuff that happens in the 
classroom and no where else.
    Even at my level at the Superintendency, it is necessary to 
have leadership, but where you really make differences is to 
allocate your resources in the classroom. I think earlier you 
said that one of the GAO reports said that bureau-funded 
schools are spending about $10,000 per student. If you look at 
that, even Ms. Vasques said that 25 percent of the money in the 
bureau comes from the Department of Education. If you add that 
25 percent plus the other discretionary dollars that schools 
have to go out and hustle for, I would contend that about 40 
percent of the total funding at the school level is 
discretionary funds that could theoretically be gone next year 
if people decided not to fund certain things.
    So then you get down to the base amount, which might be 
somewhere between $4,000 and $6,000. Of that $4,000 or $6,000 
amount, which is ISEP, transportation, administrative costs and 
operations and maintenance funds for bureau-funded schools, 
those four levels, if you look at the amount of revenue they 
have received over the last 4 or 5 years, some of them have 
actually decreased in revenue over the last 3 or 4 years, and 
some of them they may have increased $3 million, but when you 
spread $3 million over 50,000 children, that does not make a 
lot of impact at the school level.
    So I think you really have to take a look at the base 
funding for the schools. Even though some of the discretionary 
funding has increased, the base money has not made a lot of 
impact. So I think that in looking at what needs to be done for 
schools, what has to happen is things inside the classrooms. We 
are required at the school level to have a comprehensive school 
reform plan. The bureau has encouraged us to look at data to 
make decisions on what is best for children in the classroom.
    I heard this morning that they are just now starting to do 
a needs assessment to figure out what is going on. If they are 
making us do this, and we have done it for, well, I have done 
it myself for at least 15 or 20 years, but the schools that are 
doing it well have done it for a lot of times, looking at data, 
disaggregating data to find out what is going on. If they are 
just now starting to look at it, there is some kind of 
disconnect that is going on.
    So I think if you look at the stuff that I have submitted 
in written testimony, the stuff that I am providing today. I am 
willing to talk to any of the staff on the Committee on some 
real specific issues that I think are hampering schools in 
making differences for children. I would be more than willing 
to do that.
    Thank you for your time.
    [Prepared statement of Mr. Bordeaux appears in appendix.]
    The Chairman. Thank you very much, Doctor.
    Mr. Lowery, what is the justification for increasing the 
cap on administrative costs from 10 percent to over 20 percent?
    Mr. Lowery. We are looking for that in the first 2 years of 
the foundation, Mr. Chairman. As I refer to in the research we 
have done, the ability to establish effective infrastructure 
with proper staffing is essential to long-term efficiency. We 
are simply looking at this for the first 2 years.
    If you look at the numbers, no numbers that I saw in my 
research, for instance even the United Way, which is 
essentially overhead of overhead with the Combined Federal 
Program for themselves, is at 12.7 percent. The Better Business 
Bureau looks at 30 percent. The Federal guidelines for the 
Combined Federal Campaign is 25 percent. So we still remain 
within those figures and we hope that we will reduce it even 
further, but that gives us some flexibility given the 
difficulty we have had the first several years of our 
existence.
    The Chairman. Tell me again what is the status on getting 
funds released from the Office of Special Trustee.
    Mr. Lowery. We had a meeting yesterday with Mr. Cason. It 
is the first time we have actually been able to talk in person 
on this subject. We are supposed to have a follow-up meeting on 
July 6. It is our understanding that he is going to do all he 
can to release these $200,000 in unrestricted funds. 
Unfortunately, the other $1.4 million are very specifically 
restricted.
    The Chairman. Dr. Beaulieu, what is the percentage of 
teachers in BIA and tribal schools that are not highly 
qualified, roughly?
    Mr. Beaulieu. I do not know the exact number, Senator.
    The Chairman. Do you have a rough estimate?
    Mr. Beaulieu. No I do not. I am sorry.
    The Chairman. One-half? Are one-half the teachers, to your 
knowledge, designed, quote, ``highly qualified''?
    Mr. Beaulieu. I believe that there is a significant issue 
of being highly qualified in the BIA system in terms of being 
subject-matter qualified for the courses they teach, which is 
also a condition in rural schools as well, just generally.
    The Chairman. Maybe you can provide that for the record for 
us.
    Mr Beaulieu. Yes.
    The Chairman. I think that is one of the challenges of 
complying with NCLB is this issue of teachers that are, quote, 
``highly qualified.''
    Mr. Beaulieu. Senator, I might add we also are concerned 
about the highly qualified in terms of expanding the definition 
a bit to include competence in the ability to teach culturally 
unique children, so that we would emphasize greater 
professional development of the staff in schools with Indian 
children.
    The Chairman. Thank you. Would you send copies of the field 
hearing report you mentioned in your testimony to the 
committee?
    Mr. Beaulieu. Yes; we will.
    The Chairman. Thank you. We would be interested.
    Dr. McDonald, what is the status of your American Indian 
Measures of Success initiative and when are the reports due 
out?
    Mr. McDonald. It is going to come out right away. All of 
our data was to be turned into the AHEIC at the end of May, so 
I think we are going to get a report here in this next month.
    The Chairman. Yes; I hope you will send us a copy of that.
    Mr. McDonald. We surely will.
    The Chairman. Thank you very much.
    Dr. Bordeaux, you testified 1 year ago on NCLB. What 
improvements have you seen over the past year in implementing 
No Child Left Behind?
    Mr. Bordeaux. In the big picture, I think there are two 
things. One is it is forcing public schools to look at their 
disaggregated population, which in this discussion means 
looking at the Indian students and actually recognizing that 
they are in the classroom and they really are part of the 
student population, so they are looking at them and finding out 
what is going on with them academically, and recognizing that 
there is a need for them to work and try to improve the 
achievement of academics for Native American children in public 
schools.
    In BIA-funded schools, I think the success stories are 
still being written, but delays have happened because of the 
negotiated rulemaking process, where the rules are just now 
going into effect about 1 week ago, which should probably have 
been done a couple of years ago, but because of how long it 
took for them to go through the process. It is hard to tell 
what is going to happen.
    I do know that at our level at the school that I work at, 
we have made a lot of successes academically. I am not 
convinced it is because of NCLB. I am convinced it is because 
the Sisseton-Wahpeton people made the decision that they wanted 
to be better educated, so that is what they are doing.
    The Chairman. What is your school doing to meet the highly 
qualified teacher requirements?
    Mr. Bordeaux. I think the are biggest impact is, I made a 
commitment a long time ago in looking at a research report that 
I looked at when I was getting my doctorate that said that in 
business and industry they were spending nearly 5 percent of 
their money in professional development and training and 
retraining their staffs to make sure that they are always up to 
date on what is going on in their industry. In education at 
that time, they were spending less than 2 percent on 
professional development.
    So I have made a commitment always to spend at least 5 
percent on professional development. As a matter of fact, this 
last year, I think there are three of us right now who are 
doctorates at an elementary and secondary school. We have three 
other people working on their doctorate degree. We have four of 
them finishing their specialist. We just have 14 graduated with 
master's degrees from Southwest State in Minnesota. So we have 
about 45 certified positions in our school and of that amount 
over 30 of them have at least a master's degree in curriculum 
and instruction or in educational administration. So I think 
that is one of the keys.
    The other key is making sure that in the classroom, that 
what is going on in the classroom is highly active and 
culturally relevant. For Indian children, those things are 
really important.
    The Chairman. What would motivate a young graduate of a 
university with a teaching degree to want to come to teach at 
Red Lake or Lakota Sioux Reservation or Chinlee, Arizona?
    Mr. Bordeaux. The hardest thing I think to motivate 
somebody to come to a reservation to work is the economic 
condition on a lot of reservations is real tough. It is hard to 
get housing. It is real hard to find a quality of life on a lot 
of reservations that they are used to if they have never lived 
in poverty. So it makes it a lot more difficult.
    What you have to do as a teacher, and most good teachers 
have something in their heart that makes them a good teacher, 
and it does matter where they go to.
    The Chairman. But you have a relatively high turnover.
    Mr. Bordeaux. In a lot of schools. In our case, I think 
part of it is location because where the Federal Government put 
that reservation just happened to go where there is an 
Interstate that goes through it now. So it is location. And 
where they put other reservations at Pine Ridge and some other 
places where they put Indian people, it is completely isolated. 
You do not have access to much of anything.
    There are places that do not have good Internet access, not 
very good telephone service; where there is still a lot of 
multiple connections and stuff like that that is going on, too.
    The Chairman. What is your comment about that, Dr. 
Beaulieu?
    Mr. Beaulieu. About teachers, Senator?
    The Chairman. What do we need to do to motivate a young 
American who graduates with a teaching degree to go to Tuba 
City, AZ or Red Lake, the more remote areas of America that are 
mired in poverty?
    Mr. Beaulieu. Senator, we have had some experience with 
teacher training. We have had two Native teacher training 
programs at Arizona State University.
    The Chairman. Is the answer to recruit more Native 
Americans to be teachers?
    Mr. Beaulieu. Yes; indeed, I would say. In fact, focusing 
on people who are already in those schools who have a 
commitment to teaching the children and enabling through 
programs such as we do have with the Indian Professional 
Development Program which has been very successful with the 
students that we have educated, which requires that you teach 
in the school with a high Indian population once you graduate 
from the program.
    The Chairman. But neither these programs nor the number of 
Native Americans that are graduating with teaching degrees 
would anywhere near fill the requirements for teaching 
positions on Native American and BIA schools, right?
    Mr. Beaulieu. They would not, but they would also----
    The Chairman. So then it seems to me then you have to have 
some other program which would at least in the interim motivate 
non-Native Americans who are teaching-qualified to go there, 
just like we increase pay and bonuses for men and women to 
serve in the military.
    Mr. Beaulieu. That is correct.
    The Chairman. So have you all ever come up with any plans 
or ideas that we could motivate young teachers to go to these 
places and fill these positions?
    You are eager to answer, Dr. Bordeaux. Go ahead, and then 
Dr. Beaulieu, if you would like.
    Mr. Bordeaux. I think one of the things that has been 
successful in some places, too, is to allow schools over time 
to grow their own, so that they hire para-educators that want 
to become teachers and let them work as para-educators for 2 or 
3 years. When they get close to having teaching degrees, let 
them teach, even though they are not fully certified and do not 
meet the highly qualified requirement yet, but let them teach 
and work in that school at the same time so that they can get 
their degree plus gain the experience. That is how you grow 
Indian teachers.
    A lot of the Indian teachers that we have within our school 
have gone that way. I think that is something that I think can 
work and it has worked in certain areas.
    I think another thing is we talked about loan forgiveness 
for some of those that really want to come to poverty areas.
    The Chairman. Go ahead, Dr. Beaulieu.
    Mr. Beaulieu. I was going to suggest a similar idea in 
terms of in Tuba City we are currently working on the 
development of a teacher program there through a program funded 
through the Arizona Department of Education. There are 
identified 23 individuals who wish to become teachers there 
within the staff who are not currently teachers. We are 
focusing on the development of a program there over time to 
develop that teaching corps.
    I think it is not only an issue of supply, but also an 
issue of turnover rates. The turnover rates in some of these 
places are very high, which creates another issue which has to 
do with long-term improvement. If you are constantly changing 
teachers year after year after year, you are not improving the 
school through professional development efforts as well.
    The Chairman. Mr. Lowery, do you have any comments about 
that?
    Mr. Lowery. Yes I do, sir; the Santa Fe Indian School 
Leadership Institute, which was cofounded by Regis Pecos, one 
of the board members for the National Fund, created a community 
dialog which forces each community to develop a community-based 
set of principles and ideals, asking the question involving the 
entire community: What legacy do we want to leave our children 
100 years from now?
    The FACE Program, which is the BIA's best example of 
effective programming, has within it the seed of a principle, 
which is they go into the homes of students and they actually 
tutor the parents in how to tutor their children, how to 
support their children. They get a two-fold benefit. One is the 
parents are more highly motivated, more self-confident in 
pursuing and completing their own education. Their students are 
as well.
    Until we develop a holistic strategy that involves the 
entire community in owning its own responsibility and support 
for education, we cannot have the kind of comprehensive, long-
term support for young people growing up on a reservation that 
want to stay on the reservation, but come back highly qualified 
to an environment where there is little reinforcement for their 
ideals and for their commitment.
    The Chairman. Do you want to weigh in on this Dr. McDonald 
or pass?
    Mr. McDonald. I would certainly take the opportunity to 
weigh-in.
    It is a long term. There is not a short-term situation for 
it. Certainly, as an emissary of the tribal colleges, I would 
have to say that a recent report of the College Board 
statistically has proven that if they graduate from college, 
they take more active interest in the community. They are more 
active in the schools. They are more active community 
volunteers. Their children are more liable to go to school, so 
it makes a more wholesome community for a long-range effect.
    For short range, certainly loan forgiveness is one; 
certainly some priority pay. If you look at the future of one 
going to an Indian school with very poor retirement, certainly 
way out there in the middle of nowhere, with very poor medical 
help, poor housing, it is not very attractive. One has to 
address all of those in order to get really good quality 
teachers.
    The Chairman. Well, Dr. Bordeaux? The State Department, 
when you are in the Foreign Service and they send you to a 
remote outpost, Uzbekistan, they give you additional pay, 
additional incentives, more enhanced opportunity for promotion. 
But there are rewards and incentives associated with it. In the 
military when we send someone to a remote area separated from 
their family, et cetera, we give them financial rewards for 
doing so.
    It is a pretty bizarre statement, but why don't we think 
about providing financial and other incentives and rewards for 
young Americans who graduate with teaching certificates to go 
to Chinlee or Window Rock or Red Lake or these other places 
where the conditions exist that all of you have so adequately 
described.
    Mr. McDonald. Yes; even in the urban areas or the big city 
of Ronan, MT, it is very difficult for teachers there because 
of the politics between Indian and white and poor Indians and 
tragic youth deaths. It is just tragic.
    The Chairman. I would start out with BIA schools 
specifically. What do you say, Dr. Bordeaux?
    Mr. Bordeaux. I think what you are talking about is a 
plausible solution for part of the population that really wants 
to try and work on Indian reservations, give them something in 
addition to what they would normally get, but it cannot be the 
only answer. I think there also has to be a process to try to 
grow Indian teachers from within, too.
    The Chairman. Could I remind you that in the military and 
the State Department, it is not the only reason. We appeal to 
people's patriotism and willingness to serve, but we also 
reward them for taking on additional burdensome tasks. It seems 
to me that to ask a young teacher to go to a geographic area 
that has all of the conditions which you all have described and 
I am familiar with as well, that maybe we should develop some 
kind of program that would reward them for that kind of 
service. First of all, it is patriotism, but second of all it 
would be some kind of system where we might make it more 
rewarding in a fiscal way than it is today.
    In all due respect, if I was a young teacher and I had a 
choice of Window Rock or Maricopa-Pima in Phoenix, I think I 
would choose Maricopa-Pima. Right?
    Mr. Bordeaux. I am sure you would because I have been at 
teacher fairs where people from Dallas public schools would be 
up in Sioux Falls, SD offering $3,000 and $5,000 bonuses for 
those teachers coming out of South Dakota universities. They 
would much prefer to go down and do that instead of staying in 
South Dakota in the rural areas.
    The Chairman. Well, maybe we ought to look at that because 
it is obvious that it is a significant problem, one, in 
attracting people; and two, as you pointed our Dr. McDonald and 
all of us know, the turnover is horrendous. I think we ought to 
think outside the box on this issue.
    I thank the witnesses for being here. Thank you for your 
service. Thank you for your commitment to Native American 
education and we appreciate very much your valuable testimony.
    This hearing is adjourned.
    [Whereupon, at 11:20 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Leland Leonard, Director, Division of Dine' 
                        Education, Navajo Nation

    Within the Navajo Nation there is concern among teachers, 
communities, and administrators on the implementation of the No Child 
Left Behind Act [NCLBA]. While there certainly is room to improve the 
education of Navajo students, meaningful discussions need to be held on 
the impact the NCLBA will have on the education of Navajo students. 
Without meaningful discussions the Navajo Nation will struggle with the 
impact of perceived negative test scores and the labeling of programs 
as failing that are actually quite successful.
    Responsible educators on Navajo have struggled for years to 
increase student achievement. Simply mandating student achievement 
without having a meaningful dialog on the definition of achievement and 
how to reach it will inappropriately label schools as failing.
    With that introduction, we wish to comment on some specific areas 
of NCLBA, starting with initial testing results and provide a 
recommendation.
    Navajo schools testing results--As of 2003-04 School Year.
    Under the NCLBA nearly 11 percent of the Bureau of Indian Affairs 
[BIA] schools are meeting Adequate Yearly Progress [AYP], down from 44 
percent in SY 2002-03. These numbers confirm our fears that move and 
more schools and students will fail as the AYP bar rises. Testing 
results in the public schools are not much more encouraging. Schools 
either make AYP or they do not under the NCLBA because the act does not 
provide a middle ground.
    Narrow scope of testing--NCLBA tests only in three subject areas: 
Reading, Math, and Science. While these subjects are important, 
students maybe excelling in other areas, such as music, art, history, 
vocational subject, or Navajo language and culture and receive no 
credit under NCLBA. Schools will be tempted to focus on the areas where 
the statute requires testing and de-emphasize or eliminate programs 
that many students are excelling in.
    The focus on testing--Focusing on testing results has had 
predictable results. In many cases teachers are increasing homework, 
expanding drill time, teaching to the test; i.e., doing more of all the 
things that weren't working in the first place. The NCLBA does not 
encourage innovation and imagination.
    Scientifically based curriculum--There is not a lot of data 
concerning ``what works'' with Navajo children. The existing data 
suggests that the most successful curricula are those that are oriented 
in the Navajo culture. Many schools will disregard this information or 
not have access to it, and simply pick programs that have found their 
way onto an approved list at the state or national level.
    Schools that have a large Native American population must have the 
opportunity to develop and implement culturally based curriculum and 
there needs to be specific research funded to evaluate its 
effectiveness, preferably available to the tribes themselves. On 
Navajo, we have the beginnings of such research under the Navajo 
Nation's Rural Systemic Initiative program under the National Science 
Foundation, but the funding for that program ended.
    The large gap in proflciency--The goal of full proficiency within a 
12-year period is far more realistic in schools where students are 
already testing at a high level of proficiency than in those where 
proficiency levels are very low. For example a school where 75 percent 
of the student body is already rated as proficient, may have a 
relatively easy time of achieving the small increments necessary to 
make AYP. A school that begins with 10 percent of its students rated as 
proficient will have to consistently make dramatic gains. Even 
exceptional progress may still not be enough to avoid being labeled as 
failing. The great danger is that even students who are trying hard and 
doing reasonable well will be labeled as failing. The law could require 
``gains `` in student achievement with recognition that every student 
is an individual, with his own talents and interests. Testing should be 
used to identify a student's aptitude and provide guidance for the 
future direction of his/her education. Schools need to provide more 
options as the needs of our society expand. Every student should not 
have to run the same race or be expected to arrive at the same finish 
line.
    We have a Recommendation:
    Enhancing the opportunities for tribes to develop tribal 
educational systems where tribes can actually control the educational 
programs.
    The Navajo Nation is in the process of assuming authority and 
responsibility over the educational programs on Navajo. We are 
negotiating a Public Law 93-638 contract with the Bureau of Indian 
Affairs to assume responsibilities relating to the provisions of 
technical assistance and training of school personnel, school boards 
and parents. In addition, we are proposing new tribal legislation that 
would establish a Navajo Nation Board of Education with authority to 
develop standards and accredit schools, collect and analyze date, and 
license administrators and teachers. This option was one of the 
opportunities that was enhanced with the passage of NCLBA and we plan 
to make full use of it to make a positive difference in the education 
programs on Navajo. While this legislation will relate primarily to the 
BIA funded school system, the Board will also have authority to 
negotiate Memoranda of Agreement with the three States that operate 
schools on the Navajo Nation.
    The Bureau makes no provisions for implementing the statutory 
option for tribes to develop their own alternative definitions of AYP. 
This again requires resources. States received funding for this AYP 
planning, but nothing seems to be available for the tribes that may 
wish to pursue their options to actually develop appropriate measures 
for student progress. The Bureau should provide for such resources in 
its MOU with the U.S. Department of Education.
    To do this successfully requires resources. Congress has authorized 
such funding but has not appropriated any funding for the past several 
years. See 25 USC 2020. The Navajo Nation renews its funding request 
for tribal education departments in the BIA budget at the authorized 
level of $2,000,000.
    While the BIA has proposed ``privatization'' realignments on top of 
illegal reorganizations, budget cuts to offices charged with providing 
technical assistance, and new programs with no statutory authorization; 
it ignores and neglects those things it is truly charged with; i.e. 
encouraging and enhancing tribal self-determination. Additionally, 
planning grants under section 103 of Public Law 93-638 have gone 
unfunded for many years.
    No funding is requested for the critical planning for tribal 
control under the authorizations cited above, nor is there any request 
for adequate funding for administrative cost grants and indirect costs. 
The BIA also ignores opportunities for encouraging tribal control of 
education and centralizes the resources it receives from the Department 
of Education rather than distributing them to the offices where 
technical assistance could be provided, and could more easily be 
contracted by tribes.
    Conclusion: The No Child Left Behind Act needs to be amended. Its 
accountability provisions need to recognize gains in achievement and 
must not be so narrowly drawn. Testing is a tool that should be used to 
identify the aptitudes and performance of students but success on a 
test must not become the goal of education. Opportunities should be 
expanded for students who have an interest and aptitude in something 
other than a traditional 4-year college.
    In Indian country, the Federal Government should make use of 
statutory authorization that already exist to encourage and enhance 
tribal control of education as a major tool for implementation of 
quality education programs.

[GRAPHIC] [TIFF OMITTED] T1951.001

[GRAPHIC] [TIFF OMITTED] T1951.002

[GRAPHIC] [TIFF OMITTED] T1951.003

[GRAPHIC] [TIFF OMITTED] T1951.004

[GRAPHIC] [TIFF OMITTED] T1951.005

[GRAPHIC] [TIFF OMITTED] T1951.006

[GRAPHIC] [TIFF OMITTED] T1951.007

[GRAPHIC] [TIFF OMITTED] T1951.008

[GRAPHIC] [TIFF OMITTED] T1951.009

[GRAPHIC] [TIFF OMITTED] T1951.010

[GRAPHIC] [TIFF OMITTED] T1951.011

[GRAPHIC] [TIFF OMITTED] T1951.012

[GRAPHIC] [TIFF OMITTED] T1951.013

[GRAPHIC] [TIFF OMITTED] T1951.014

[GRAPHIC] [TIFF OMITTED] T1951.015

[GRAPHIC] [TIFF OMITTED] T1951.016

[GRAPHIC] [TIFF OMITTED] T1951.017

[GRAPHIC] [TIFF OMITTED] T1951.018

[GRAPHIC] [TIFF OMITTED] T1951.019

[GRAPHIC] [TIFF OMITTED] T1951.020

[GRAPHIC] [TIFF OMITTED] T1951.021

[GRAPHIC] [TIFF OMITTED] T1951.022

[GRAPHIC] [TIFF OMITTED] T1951.023

[GRAPHIC] [TIFF OMITTED] T1951.024

[GRAPHIC] [TIFF OMITTED] T1951.025

[GRAPHIC] [TIFF OMITTED] T1951.026

[GRAPHIC] [TIFF OMITTED] T1951.027

[GRAPHIC] [TIFF OMITTED] T1951.028

[GRAPHIC] [TIFF OMITTED] T1951.029

[GRAPHIC] [TIFF OMITTED] T1951.030

[GRAPHIC] [TIFF OMITTED] T1951.031

[GRAPHIC] [TIFF OMITTED] T1951.032

[GRAPHIC] [TIFF OMITTED] T1951.033

[GRAPHIC] [TIFF OMITTED] T1951.034

[GRAPHIC] [TIFF OMITTED] T1951.035

[GRAPHIC] [TIFF OMITTED] T1951.036

[GRAPHIC] [TIFF OMITTED] T1951.037

[GRAPHIC] [TIFF OMITTED] T1951.038

[GRAPHIC] [TIFF OMITTED] T1951.039

[GRAPHIC] [TIFF OMITTED] T1951.040

[GRAPHIC] [TIFF OMITTED] T1951.041

[GRAPHIC] [TIFF OMITTED] T1951.042

[GRAPHIC] [TIFF OMITTED] T1951.043

[GRAPHIC] [TIFF OMITTED] T1951.044

[GRAPHIC] [TIFF OMITTED] T1951.045

[GRAPHIC] [TIFF OMITTED] T1951.046

[GRAPHIC] [TIFF OMITTED] T1951.047

[GRAPHIC] [TIFF OMITTED] T1951.048

[GRAPHIC] [TIFF OMITTED] T1951.049

[GRAPHIC] [TIFF OMITTED] T1951.050

[GRAPHIC] [TIFF OMITTED] T1951.051

[GRAPHIC] [TIFF OMITTED] T1951.052

[GRAPHIC] [TIFF OMITTED] T1951.053

[GRAPHIC] [TIFF OMITTED] T1951.054

[GRAPHIC] [TIFF OMITTED] T1951.055

[GRAPHIC] [TIFF OMITTED] T1951.056

[GRAPHIC] [TIFF OMITTED] T1951.057

[GRAPHIC] [TIFF OMITTED] T1951.058

[GRAPHIC] [TIFF OMITTED] T1951.059

[GRAPHIC] [TIFF OMITTED] T1951.060

[GRAPHIC] [TIFF OMITTED] T1951.061

[GRAPHIC] [TIFF OMITTED] T1951.062

[GRAPHIC] [TIFF OMITTED] T1951.063

[GRAPHIC] [TIFF OMITTED] T1951.064

[GRAPHIC] [TIFF OMITTED] T1951.065

[GRAPHIC] [TIFF OMITTED] T1951.066

[GRAPHIC] [TIFF OMITTED] T1951.067

[GRAPHIC] [TIFF OMITTED] T1951.068

[GRAPHIC] [TIFF OMITTED] T1951.069

[GRAPHIC] [TIFF OMITTED] T1951.070

[GRAPHIC] [TIFF OMITTED] T1951.071

[GRAPHIC] [TIFF OMITTED] T1951.072

[GRAPHIC] [TIFF OMITTED] T1951.073

[GRAPHIC] [TIFF OMITTED] T1951.074

[GRAPHIC] [TIFF OMITTED] T1951.075

[GRAPHIC] [TIFF OMITTED] T1951.076

[GRAPHIC] [TIFF OMITTED] T1951.077

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Thank you, Mr. Chairman.
    I commend the committee for holding this hearing today.
    Education is the cornerstone that helps to build our Nation to what 
it is today and to prepare for our future. This is also true for native 
nations.
    In Hawaii, we have several education programs available for Native 
Hawaiians, separately funded from Indian programs, of course.
    Native Hawaiians experience similar concerns as other native 
students, with a majority of the schools in Hawaii that do not meet 
Federal elementary and secondary education standards having a 
predominantly Native Hawaiian population.
    Although all native children are improving their test scores, they 
still fall behind other children and the schools are still not meeting 
Federal standards.
    But those Federal standards focus on reading, math, and science.
    I mention this because there may be other factors that are causing 
the lower achievement scores and creating negative consequences.
    The Federal Government must consider and address the impact that 
inadequate funding, poor school facilities, geographic isolation, 
culture, and other factors have on the ability of schools to educate 
native students and on the ability of native students to learn.
    We must realize that there are additional means to improve the 
education of native peoples of all ages, both in and out of the 
classroom.
    Perhaps most importantly, we must recognize that native peoples 
must be involved in the education of their students to ensure that 
their unique needs are addressed.
    This is critical in ensuring that native peoples can define and 
build their communities to reflect their respective cultures and needs.
    Providing an effective, relevant and quality education is important 
to every nation in order to prepare future leaders with the skills 
necessary to address social, health, and economic conditions.
    We must assist native nations in doing the same.
    Mr. Chairman, thank you for holding this much needed hearing.

                                 <all>

      

</pre></body></html>
